5488
No.

IN THE SUPREME COURT OF THE UNITED STATES OF AMERICA

SivP^rn

JOHN PATRICK BLACKMON,
7%

Petitioner-Appellant,
v.
JEFFREY UTTECHT, SUPERINTENDENT,
Respondent-Appellee.

On Petition for This WRIT of Certiorari to the United States
COURT of Appeals for the Ninth Circuit Caae No. 19-35883
U.S. Western District COURT of WASHINGTON, Caae No. 2:16-cv-01592-RSL

PETITIONER'S PETITION FOR WRIT OF CERTIORARI

John P. Blackmon
Petitioner-Appellant, PRO SE
John P. Blackmon, # 367781
Coyote Ridge Corrections Center
P.0. Box 769 GA-10-2U
Connell, WA. 99326-0769

AIJG 2 4 2021

a

'QUESTIONS!
1. Did events in the second trial establish additional process due the
Defendant in any subsequent trial?
2. Was the trial judge's noting the Defendant's "visible" demeanor sufficient
to assume the Defendant was waiving his right to testify?
3. Did the events in earlier trials constitute the "exceptional, narrowly
defined circumstances" noted in United States v. Pennycooke for an on the
record inquiry of the Defendant's decision not to testify to be required?
4. Did the fact that the Defendant testified in the first trial, but not in
the second trial, require the judge to directly address the issue of the
Defendant giving testimony in the third trial under Ortega v. O'Leary?

iii.

TABLE OF CONTENTS
CERTIFICATE OF MAILI-WS-ttt;

fifl et &4
02-,0* 404-

LEAVE TO PROCEED IN FORMA PAUPERIS, Cover Page
LEAVE TO PROCEED IN FORMA PAUPERIS, MOTION
APPX-A; Petitioner Habeas(2254)

Pg 001 thru 076 of 076

PETITION FOR WRIT OF CERTIORARI COVER

l\

QUESTIONS

m
iv,V

TABLE OF CONTENTS
TABLE OF AUTHORITIES

0'loCl I

PETITION AND DECLARATION FOR WRIT OF CERTIORARI

01 ot II

OPINIONS AND ORDERS BELOW

<2(1 Dili
02-4 II

JURISDICTION
STATUTORY PROVISIONS
PROCEDURAL HISTORY: SEE
PRO SE PLEADING STANDARD

<2^*0 IJf

STATEMENT OF THE CASE

0 4 o C II
01

ARGUMENT

CONCLUSION / RELIEF SOUGHT

imM/Hi

AFFIRMATION

lUfrll

APPENDIX-AA, APPX-AA
- Petitioner-Appellant1s Petition for Rehearing (en banc) » •

Pgs.001-011

19-35883: Pgs.012 of 275

APPENDIX-AA, A,
=federal counsel withdraw,

19-35B83:Pg 13 of 275

=extension of time granted,

19-35883: Pg 14 of 275

=extension of time request, ...

19-35883: Pg 15 of 275

APPENDIX-AA, B,

1 9-35883: Pgs.01 6 of 275

=U.S. COA., NINTH Circuit Memorandum,...

iV

19-35883: Pgs.016 thru 22

TABLE OF CONTENTS ( coni;. )

■APPewf>i-x-=*Ai—e=U.S. COA *

9

T9-

19-35883: Pgs.024 thru 040

NINTH Circuit Oral Argument,..

19-35383: Pgs.041 of 275

APPENDIX-AA, D,
=U.S. COA •

9

of 275

19-35883: Pge.042 thru 093

NINTH Pet.-App. Open Brief;..

19-35083: Pgs.094 thru 115

=U.S.COA•,..

1 9-35883: Pgs.116 of 275

APPENDIX-AA, E,

19-35883: Pgs.117 thru 156

=U. S. COA., NINTH State Resp. Briefs;...

19-35883: Pgs.157 of 275

APPENDIX-AA, F,....
=APPENDIX-AA, Fa,

.............

1 9-35883: Pgs.158 thru 161

=APPENDIX-AA, Fb,

...........

19-35883: Pgs.162 thru 162

=APPENDIX-AA, Fc,

..................

19-35883: Pgs.167 thru 172

=APPENDIX-AA, Fd,

19-35883: Pgs.173,206,207,208,209, of 275

=APPENDIX-AA, Fa,

..................

19-35883: Pgs.210 thru 213
19-35883: Pgs.214 of 275

APPENDIX-AA, G, Sept.09,201 3

19-35883: Pgs.215 thru 225

=SUPERI0R CT. 12-1-0021 9-8: 09/09/201 3 Prc.

19-35883: Pgs.226 of 275

APPENDIX-AA, H, August 07,2013

19-35883: Pgs.227 thru 238

=SUPERI0R CT. 12-1-0021 9-8: 08/07/2013 Prc..

19-35883: Pgs.239 of 275

APPENDIX-AA, I, Duly.09,2013

19-35883: Pgs.240 thru 243

= SUPERIDR CT. 12-1-00219-8: 07/09/201 3 Prc.

19-35883: Pgs.244 of 275

APPENDIX-AA, 0, Duly 08,201 3

19-35883: Pgs.245 thru 264

=SUPERI0R CT. 12-1-00219-8: 07/08/2013 Prc.

19-35883: Pgs.245-274,204-05

APPENDIX-AA, K, Sapt.02,2013
=SUPERI0R CT. 12-1-00219-8: 09/02/2013 Prc..

APPENDIX-AA, L,..

Pgs.245-274,204-05

1 9-35383: Pgs.203,201 -192,1 90,1 91 ,1 82-1 89,1 81 -1 74

APPENDIX-AA, M, Oanuary 12,2012, PC12-0134:
=Pgs.0Q1 thru 003

APPENDIX-AA, N, Restaraint Petition, 75925-6-1:

V

Pgs.001 thru 200 of 200

PETITION AND DECLARATION FOR WRIT OF CERTIORARI
UUMtb

nuuJt-JCHN—PATRICK

BLACKMON, Petitioner herein, submitting,

affirming, declaring, and petitioning this extroardinary WRIT of
Certiorari, and Declaration requesting the intervening of, calling for the
axercise of the United States Supreme COURT, The HIGH COURT herein, the
supervisory powers pursuant to Supreme COURT Rule, S.CT.Rule 10.(a), far
determination under controlling authority of law, constitutional claims
appealable by certificate, relevant to state COURT decision, report and
recommendation, memorandum, adaption and order of and by the United States
COURT of Appeals for the NINTH Circuit herein.

OPINION AND ORDERS BELOW
The opinion of The COURT available at BLACKMON v. UTTECHT, B20 Fed.
Appx. 3BB, 2020 U.S. App. LEXIS 31063, WL 5815990 (9th Cir. Wash • > Sept.
30,2020) This Petitioner petitioned for hearing en banc.

3URISDICTI0N
This Petition for WRIT of Certiorari submitted ttojely, documented on

{09/4Z02J

./■

the LEGAL Mail envelope[s] a date before the

d

of August,2021, The

HIGH COURT, having jurisdiction invoked under S.CT.Rule 14.5, a letter
from The CLERK, See APPX-A; pursuant to general extension due to China
C0VID Virus crisis, See APPX-B; pursuant to the NINTH Circuit motion for
en banc Rehearing DENIAL ORDER of habeas 2254 exhausted state and federal
COURT constitutional claims, See APPX-C; and under 28 U.S.C. § 1254(1);
The Petition for WRIT of Certiorari preceded by MOTION OF LEAVE TO PROCEED
IN FORMA PAUPERIS. NINTH CIR. MEMORANDUM at APPX-AA,B,801-06of06

0l 0

STATUTORY PROVISIONS

28 U.S.C. § 2254(b) provides in relevant part:
(1) An application for writ of habeas corpus on behalf of a person in
custody pursuant to the judgment of a State COURT shall not be granted
unless it appears that (A) the applicant has exhausted the remedies available in the courts
of the State; or
(B)(i) there is an absence of available State corrective process; or
(ii) circumstances exist that render such process ineffective to
protect the rights of the applicant.
(2) An application for a writ of habeas corpus may be denied on the
merits, notwithstanding the failure of the applicant to exhaust the
remedies available in the courts of the State.
(3) A State 3hall not be deemed to have waived the exhaustion
requirement or be estopped from reliance upon the requirement unless the
State, through Counsel, expressly waives the requirement.

01

l4>

PRO SE PLEADING STANDARD
IT is well-settled that COURTs must liberally construe pro se
pleadings. See e.g •

f

Erickson v. PardU3, 551 U.S. 89, 94, 127 S.Ct. 2197,

167 L. Ed. 2d 1081 (2007)("A document filed pro sa is "to be liberally
construed", and a "pro se complaint, however inartfully pleaded, must be
held to less stringent standards than formal pleadings drafted by lawyer."
(citations omitted)( quoting Estelle v. Gamble, 429 U.S. 97, 106, 97 S.Ct.
285, 50 L. Ed. 2d 251(1976)); Higgs v. Atty Gen * $ 655 F.3d 333, 339 (3d
Cir.2011)("The obligation to liberally construe a pro se litigant’
pleadings is well-settled."); Rainey v. Varner, 603 F.3d 189, 198(3d
Cir.2010)("To assess whether pro sa petitioner fairly presented claims to
the state courts, we will construe all pleadings liberally. A habeas
corpus petitione prepared by a prisoner without legal assistance may not
be skillfully drawn and should thus be read generously." It is the policy
of the courts to give a liberal construction to pro se habeas
petitions."(citations omitted)(quoting United States ex rel. Montgomery v.
Brierly, 414 F.2d 552, 555 (3d Cir.1969))); Dluhos v. Strasberg, 321 F.3d
365, 373 (3d Cir.2003)("[Ul]e must liberally construe the pro se litigant's
pleadings, and we will apply the applicable law, irrespactive of whether
he has mentioned it by name.”)

03ii

STATEMENT OF THE CASE
■Around January -U-,2QI2, P@titi.onar, having no criminal history,
having no record of violence, woke out from sleep to law enforcement.
APPX-M, Trl3VRP

; detective Shackleton herein, accompanied on-sita by

(2) two Marysville Police Officers, MPO herein, including three off-site
MPO vehicles in standby, tracking exigency and or circumstance, Shackleton
mounting such law enforcement offensive, being informed by spouse that
Petitioner was asleep in his bed, Trl3VRP

; neglecting any effort,

including telephonic, to obtain a type of warrant. Shackleton arresting
Petitioner alleging probable cause (as state witness conceded the police
response was a knock-n-talk, APPX-N,pg25-30, TrlSVRP

; immediately

removing him from his home of over (15) fifteen years and transporting him
to the Marysville Police Department, MPD herein.
Around January 12,2012, Petitioner was brought before The COURT for a
PC Determination Hearing, appointed counsel was provided, incompetent as
stipulated to probable cause lacking a single fact, the prosecutor is not
identified as required by stipulation COURT Rule and stipulation standard
of review. APPX-M;
Shackleton then entered Petitioner's residence in his absence and
without his permission, TrlVRP3_

; in violation of The Fourth and art.

1 § 7 Amendments under repective constitutional right and protections,
performing a walk through to gather a material list to return subsequent
with a search warrant for gathering her list, already inventoried,
gathered from allegations in interview. APPX-N,pg25-30; No bedding
evidence was gathered from the parents bed, behind the alleged locked door
motive where assertion of condom protected alleged annoying anal sex had
occurred. Shackleton claimed ignorance. TrlURP

04- 4 n

Evidence gathering by Shackleton included materials inventoried prior,
state witness

bedding—for-

testimonials. Subsequent search warrants were executed; Trl3\/RP_

the

mother, 3L3 herein, gained credibility as state witness by conceding that
she a liar, Trl3VRP

; and for some reason the mother was afraid she

was going to jail, Trl3URP_
Trrl3URP

; IB conceded to being a liar as well,

; and also thought for some reason that her mother was going

to go to jail, Trl3VRP

; 3L3 alleged to never using condoms with

Petitioner in the history of the marriage, however conceded to purchasing
around the same time an alleged website, pornography, and assisting 3L3
trim her swimsuit line, a few months prior to Petitioner's arrest.
Trl3VRP

; A few months prior to 3anuary,2012. Shackleton concedes to

Law Enforcement knock-n-talk standard lacking probable cause. APPXN,pg26L13, Trl3VRP

; Asst.Atty.Gen. Mandy Rose, "opens the door" in

briefing asserting facts not in existing record, the mandatory reporter at
no time spoke to or with IB relevant to this police action and or subject
to. APPX-Fe Trl3VRP

; This is specific in the existing record.

Around evening of 3anuary 1.3,2012, Petitioner was released on bail,
on the improper and or moot preliminary hearing, APPX-M;
Around October,2012, in a First Trial before 3udge Micheal T. DObJNES
Trial COURT herein, resulting in about five days deliberations, Hung 3ury
Petitioner choice of exercise, invoking his right to testify after the
state had rested, and prior to defense resting, taking the stand under
OATH on direct and cross-examination, defense counsel having no tactical
obstacle contrary to Petitioner's decision. APPX-G04-05of11; First Trial
Defense counsel wa3 WSBA #4677, Attorney 3ohn Henry Browne herein;

0^ (N

Around March,2013, in a Second Trial before the DOWNES Trial COURT,
-reaui-t'i'ng—I-n-abourt—f'i've-daya-dsH'berati'ona'; Hung 3ury. Petitioner1 s
choice of exercise of his right was at sometime post, after the state and
the defense counsel had both rested, APPX-U22 of 28, ,19-35883,pg180 of
275.
The COURT stating, " 9 • * .what I'm just going to do is look at you and say,
Ms .-Stamm ,-yQu-can -restr"-Defense -resting—APPX=L'2QL-Ta-of-2B-rDe"fen3e
Counsel motion request for Petitioner's expressed due process exercise,
in-limine colloquy was GRANTED by the DOWNES Trail COURT, APPX-C22 of 28;
The DOWNES' Trial COURT conducting the GRANTED expressed "explicit"
colloquy, APPX-L22 of 28;
The DOWNES' Trial COURT GRANTING of Defense Counsel request motion for an
"explicit" expressed, sua sponte type, in-limine, on-the-record colloquy
of Petitioner's constitutional fundamental and personal exercise of right
to testify, and or the exercise in reciprocity, Petitioner choosing to
remain silent. APPX-U23 of 28
Prior to the Third Trial, the DOWNES Trial COURT was informed, knowing,
intelligent,and intentional, the exercise of Petitioner's right or refusal
to testify was in attorney /client conflict in the Second Trial.
On Duly 01,2013, after two previous deliberated juries could not
return unanimous acquittal and or unanimous conviction verdicts, the State
subjected Petitioner to a third.trial for the alleged molestation and rape
of his oldest biological daughter. ER208, 224. Although Petitioner felt
compelled and desired to testify,. desired to exercise his right to
testify, defense counsel did not call Petitioner to testify.

$(t op- (!

i

This record is unambiguous to the blind eye as well; the Federal and State
■&trcn±t—CWRT.s_erj.,udJLilv~the- unreasonao.Le determination' of- rebutted
testimony and accomplice perjury, by state witnesses, conceding to lack of
credibility, telling of the state being found wanton, and influencing of
witnesses1'testimony in existing record; the alleged use of a single box
of monitored magic condoms stretch back (7) seven - (20) twenty months
into the past, prior to purchase, alleged use in criminal acts, sworn and
in the presence of the prosecutor, prerequisite to (alleged prior to water
damage, a pregnancy scare identifying a normal messed up cycle?, exposed
to porn, accessing pc restricted from using, etc. facts relevant to
whichever trial), denying Petitioner claims was both an unreasonable
determination of the facts and an unreasonable application of clearly
established federal law, judicial abrogation. The Petitioner's second and
third claims were properly exhausted in that his Fifth Amendment claim was
adequately presented and his actual innocence claims meets the standard
for proceeding in the interest of justice. Accordingly, he is entitled to
a WRIT of Certiorari and the NINTH Circuit erred by joining the District
COURT, and The Trial COURT in it's independent abrogation of Petitioner's
fundamental and personal exercise of right to testify and or refusal of
tba same, in violation of Rock v. Arkansas, 483 U.S. 44 (1987), fn 03,
identifying instant case Trial COURT comprehended requirements in United
jStatas v. Pennycooka, 65 F.3d 9 (3rd Cir. 1995), in violation of an
absenting and deception at the judicial branch level to carry out acts of
"waivery" as was before the bancroft court; and Sir Thomas Moore, his name
should be on required instruction, given by giver of the law and agreed
pre-trial, detailing due process of exercise, the right and or refusal to
testify.

|0 of l|

Petitioner is entitled to the granting of this writ and

the supervisory

■powers—grantingJfc.fae~s~aine, reversing and remanding tor instructions to
grant the writ and or to proceed to the merit, truth, and facts in law to
chronolgy and prerequisite establishment, and proceed to the merits of
Grounds 2 and 3. See APPX-D, 19-35883,pg47 of 275
This Petitioner filed a MOTION FOR NEW TRIAL in Snohomish County
Superior COURT Criminal Case # 12-1-00219-B, timely on July 25,2013, the
filing represented by Browne, new defense counsel, APPX-H;
The DOWNES Trial COURT, knowing, intelligent, and intentional,
[w]ithheld alleged new factual findings, asserting unsubstantiated, as
direct eye witness, informing of Duly 09,2013, disclosing withheld on
September 09,2013.
Petitioner affirms and declares under the penalty of perjury under
the laws of the State of Washington that the foregoing is true and
correct, that Petitioner-Appellant has read all the above contents and
document[s], this document, knows of the contents, and believes The Same
to be TRUE and CORRECT to Petitioner's knowledge and of it's creation at
the Coyote Ridge Correction Complex in the County of Franklin, Washington
State; pursuant to RCW 9A.72.085, pursuant to Dickerson v. Wainwright, 626
F.2d 1184 (1980) and 28 USC § 1746.
DATED, PROCLAIMED, and SUBMITTED This 14th day of August,2021.

(/

CL
Di ir/P. Blackmon, Petitioner-Appellant, PRO SE
itioner Explicit Invokes ALL UCC /USC Protections

II »f II

